No. !

“7
Supreme Court, U.S.
FILED

SEP 2 8 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

PATRICIA WYNN
— PETITIONER
(Your Name)
VS.

MARK BUTLER

— RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

SUPREME COURT OF GEORGIA
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

PATRICIA WYNN
(Your Name)

1195 WATTS ROAD
(Address)

FOREST PARK, GEORGIA 30297
(City, State, Zip Code)

706-872-6802
(Phone Number)

f

V Ljan

QUESTION PRESENTED
Whether the Court below "so far departed from the accepted and usual
course of judicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court's supervisory power."

1

LIST OF PARITIES
All parties appear in the caption of the case on the cover page.

11

TABLE OF CONTENTS
Page
QUESTIONS) PRESENTED

i

LIST OF PARTIES

11

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

Vll

PETITION FOR A WRIT OF CERTIORARI

1

OPINION BELOW

1

.1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISION

2

STATEMENT OF THE CASE

11

REASONS FOR GRANTING THE WRIT

19

CONCLUSION

20

PROOF OF SERVICE

21

INDEX TO APPENDICES
APPENDIX A—. Decision of State Court of Appeals
APPENDIX B—Decision of State Supreme Court Denying
m

22

23

28 U.S.C. 1257 (a)

1

Rule 2(b)

16

Rule 4(b)

12

Rule 5 (d)(4)

,13

Rule 6(f)

13

Rule 14 (c) (2) (4)

16

Rule 29 (a)

17

Rule 29.2

18

Rule 33

18

Rule 34

18

Rule 38 (b) (2)

18

Rule 42

17

Rule 901(b)(5)

8

OTHER
Article 2(1)

12

Grievance Policy #309-16-1

3

Tucker Act

14

O.C.G.A 34-8-2

6
vi

O.C.G.A 34-8-122

8

O.C.G.A 34-8-194 (2)(b)(v)

11

O.C.G.A 34-8-223 (b)

9

O.C.G.A 34-8-256(b)

6

O.C.G.A 300-2-9-6)

4

Vll

PETITION FOR A WRIT OF CERTIORARI

Petitioner respectfully prays that a Writ of Certiorari issued to review
the judgment below.

OPINION BELOW
The opinion of the Georgia Court of Appeal. Which was published,
was issued on January 8, 2020, and is attached as Appendix A. The
Supreme Court of Georgia denied Writ of Certiorari on August 10, 2020
is attached as Appendix B. Opinion of Supreme Court of Georgia denied
rehearing of case on September 8, 2020 is attached as Appendix C.

JURISDICTION
The date on which the highest state court decided the case was
August 10, 2020. A copy of that decision appears at Appendix_B
A timely petition for rehearing was there after denied on the
following date, September 8, 2020 and a copy of the order denying
rehearing appear at Appendix C.
The jurisdiction of this Court is invoked under 28 U.S.C. 1257 (a).
1.

CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
United States Constitution, Amendment 14 provides, “No state
shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive
any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the
laws. ”
The Fourteenth Amendment's Equal Protection Clause requires
states to practice equal protection. Equal protection forces a state to
govern impartially. Thus, the equal protection clause is crucial to the
protection of civil rights.
Due process of law in the [Fourteenth Amendment] refers to that
law of the land in each state which derives its authority from the
inherent and reserved powers of the state, exerted within the limits of
those fundamental principles of liberty and justice which lie at the base
of all our civil and political institutions, and the greatest security for
which resides in the right of the people to make their own laws, and
alter them at their pleasure.
2.

STATEMENT OF CASE
The petitioner was hired by Fulton County on April 16, 1997, as a
Clerk Typist and later upgraded to Administrative Specialist, where
she had worked for 21 years. The manager, Ms. Sheila Dennis, and the
petitioner agreed on vacation from August 6, 7, 8, of 2018, signed and
dated by both individuals on May 21, 2018. (Appendix 30)
The manager began to harass the petitioner to the point that she
filed an internal grievance against the manager, Ms. Dennis, on July
20, 2018, Grievance Case#07-20-18-0034.
Employee Grievance Policy #309-16-1 which states, “an employee
has a right to use the grievance procedure without fear of reprisal or
retaliation, and the filing of a grievance by an employee will not reflect
adversely on the employees.” (Appendix 31)
“The objective of the grievance procedure is to settle all grievances
between management and employees as quickly as possible." Internal
grievance filed by employee hopes to provide with the opportunity to clear
3

the air with their employer. Shouldn't dismissed the individual for
raising a genuine grievance about one of the statutory employments
“One of the most important job rights is the right to be free from
discrimination. These laws also prevent retaliation if you file a
complaint against the employer for discriminating against you. It is
illegal reasons for firing an employee for asserting their legal rights”.
The petitioner took her approved vacation from August 6,7,8 of
2018. “An individual shall not be on vacation if the employer-employee
relationship no longer exists. However, this relationship shall exist if
(b)The individual has a firm return to work date. (O.C.G.A 300-2-9-6)
On August 30, 2018, the petitioner received a letter from the
Grievance Committee for a hearing on September 13, 2018. (Appendix
32)

4

On September 10, 2018, the petitioner received a letter
rescheduling Grievance meeting for September 27, 2018. (Appendix 33)
In the meantime, the manager, Ms. Dennis, withheld the
petitioner’s entire paycheck on September 14, 2018, which left her
family without an income, which created economic hardship, so the
petitioner contacted Ms. Ann Willingham, Human Resource, about her
paycheck.
On September 28, 2018, Human Resource, Ms. Willingham,
responded to the petitioner’s concern for her paycheck by issuing a
Separation Notice and claiming the petitioner retired on August 8,
2018, the petitioner was on vacation on August 8, 2018. The
termination was result of retaliation for filing a grievance against the
manager, Ms. Dennis (Appendix 34)
That termination violated the law to penalize the petitioner for
exercising her right. Title VII makes it an unlawful employment
practice for a person covered by the Act to discriminate against an
individual "be he or she has opposed any way did an illegal employment
5

practice.
The petitioner filed for unemployment on October 4, 2018 but
denied by the Claim’s Examiner. She filed an appeal. The hearing was
conducted by Honorable Andromeda O'Neal, commencing November 19,
2018.
Under Georgia law, employers must complete and deliver a
separation notice to all employees on the last day of work. Failure to
provide this notice may adversely impact an employer's opportunity to
contest an employee's unemployment benefits claim.
The “strong public policy is favoring payment of unemployment
benefits to persons unemployed through no fault of their own. O.C.G.A
34-8-2.”
According to O.C.G.A. 34-8-256(b), "Any employing unit or any
officer or agent of an employing unit or any other person who knowingly
makes a false statement or representation or who knowingly fails to
disclose a material fact to prevent or reduce the payment of benefits to

6

any individual entitled. ”
According to Unemployment Insurance Appeals Handbook reads, “
“It is important that you present all evidence during the hearing,
including but not limited to documents, videos, audio recordings,
photographs, etc. that are relevant to your case.” (Appendix 36)
“The Board of Review will review the records of the Appeal
Tribunal hearing to ensure due process of law and the appropriate
decisions reached.” (Appendix 36)
Also, “Let the Administrative Hearing Officer know that you have
documents or other evidence that you would like to have introduced into
evidence.”(Appendix 36)
Recordings may be used and admitted into evidence at the
hearing. To authenticate a recording, you must: “provide a witness, who
can testify that the recording reliably shows the fact or facts to be

7

proven and that the recording itself indicates the time and date.
(Appendix 36)
“The Administrative Hearing Officer will record the entire hearing.
The recording is used if an appeal is filed to the Board of Review or for
other internal purposes. Generally, it can use hearing recording only
for unemployment compensation purposes, according to O.C.G.A. 34-8122. (Appendix 36)
On July 31, 2019, the petitioner went to Georgia Department of
Labor to get a copy of the Audio CD#24284-18 of hearing from the legal
record department. When the petitioner inquired about an audio
recording of voicemail message that the witness, Ms. Kizzy Lewis
testified that she heard under oath. No evidence of audio recording
voicemail existed in the legal record department.
According to Federal Rule of Evidence 901(b) (5), voice
identification, through mechanical or electronic transmission or
recording — based on hearing the voice at any time under
circumstances that connect it with the alleged speaker.
8

The petitioner seeks judicial review, and after a hearing, the
Superior Court denied her. On appeal, the petitioner argues that the
Superior Court applied the wrong standard of review considering her
denial of benefits and further contends that the evidence does not
support the Board’s findings.
1. The petitioner argues that the Superior Court failed to
adhere to the proper standard of review by making the
Board's findings not made.
“Under Georgia law, Superior Court reviews decision by the Board,
"the findings of the [Board] as to the facts, if supported by evidence and
in the absence of fraud, shall be conclusive, and it shall confine the
jurisdiction of the court to questions of law.” (O.C.G.A 34-8-223 (b).
Thus, “the board's factual determinations must be affirmed if there
is any evidence to support them." (T.N.S. mills v. Russell, 213 Ga. App.
107,107 (443 SE2d 658) (1994) See also Williams v. Butler, 322 Ga App.
220, 222 (1) (744 SE2d 396) (2013).
And “the superior court is not authorized to weigh the evidence and
9

substitute its factual findings for those of the administrative trier of
fact” McGahee v. Yamaha Motor Mfg. Corp. of America, 214 Ga. App.
473, 474 (448 SE2d 249) (1994)
Here, the Superior Court exceeded its review scope by making its
findings of fact rather than evaluating whether any evidence supported
the Board’s decision.
Therefore, the Superior Court engaged in fact finding, which it is not
permitted to do.
2. The petitioner argues that the evidence does not support
the Board’s findings; this Court, too, applies any evidence
test. Robinson v. Butler, 319 Ga. App. 633,634-635(737
SE2d 731) (2013).
Thus, “disqualification is an exception to the statutory scheme for
unemployment benefits and the employer must show by a
preponderance of the evidence that disqualification is appropriate.
(Barron v. Poythress, 219 Ga. App. 775, 776 (466 S.E.2d 665) (1996).
The claimant for unemployment benefits entitled compensation
unless the employer proves by a preponderance of the evidence that the
10

claimant caused the termination. Millen v. Caldwell, 253 GA. 112, 115
(317 S.E. 2d 818)
According to O.C.G.A 34-8-194 (2)(b)(v) Except for activity
requiring disqualification under this Code section, the employee was
exercising a protected right to protest wages, hours, working
conditions, or job safety under the federal National Labor Relations Act
or other laws.
Therefore, she entitled under the law to unemployment
compensation, and the Superior Court erred in affirming the Board's
denial of benefits.

11

*s

./x> :

,

T '

i

I' '.’I

t. r •

,

■•'vr- ■.

;C .*

V

A

?.y

4

jJ

< 7

‘j

•• i

• *

*. •

*

'*

•i{r;

j

Z-

I

■\

•-. >

i U ;f .~r'Uu~:

.i'1’’ -ufcf

■■■;(

‘f

i

ip,4f)/

i=>

«-

»

■;

-J

■ v' i,'

”i ;• - v;> .':v; •»,>,.

.<*: u. vvi'-r ■ -■

■i
••

t

■).'!

Tv *n

,>>

‘ •

r- ■ ■

(■

7.v:i

J>r, ■■■<

f)

J

»,:

v *

i

.V* v/.r ■ >.,7-7

. i
;j, '■

■’ V ^

\t1

-r,' {

J ,

f

•»?;r,. I

J

7
■

f

X

;

i,*

REASONS FOR GRANTING PETITION
Whether Court below "so far departed from the accepted and
usual course of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an exercise of this
Court's supervisory power."
“Everyone shall be guaranteed judicial proceeding of their rights
according to Article 2(1), Protection of Rights in Judicial Proceedings,
under the Civil Procedure Code of Georgia, Book One, Chapter I Basic
Provisions of Legal Proceedings.
The petitioner filed a Discretionary Application document filed in
the drop box on December 4, 2019, and physically received in the office
on December 5, 2019, at 8:36 a.m. In big, bold words, FILED IN DROP
BOX is stamped at the bottom of the Discretionary Application cover
page. (Appendix 25)
According to the Georgia Court of Appeal, Rule 4 (b) changed
effective December 6, 2019, because the Nathan Deal Judicial Center
does not have a drop box. Rule (4) (b) Drop box Paper Filing "When the
office of the Clerk is not open, may deposit documents in the Court of
Appeals drop box for filing. Documents placed in the drop box are
removed each morning and clock stamped with the present time and
12

date but shall be deemed filed on the prior business day if the
documents comply with Court rules. “Any document without a
certificate of service shall not be accepted for filing.” Court of Appeal
Rule 6(f)
“The office of the clerk to refuse to accept for filing papers not
conforming to certain requirements imposed by local rules or practice
will expose litigants to the hazards of time bars." (Federal Rule Civil
Procedure 5 (b) (4)
“Acceptance by the clerk. A clerk must not refuse to file a
paper solely because it is not in the form prescribed by
these rules or by a local rule or practice”.
“This is an important rule, especially for those who are preceding
m a court of record." Can punish anyone who conceals or removes a
document from the record.
Furthermore, the Court of Appeal returned the petitioner’s
documents, dated December 10, 2019, didn't have number 6 as a
deficiency marked which reads, “No Certificate of Service accompanied
your document(s).
13

Besides, Court Staff cannot provide legal advice or interpretations or
recommendations about what to do.
“You should provide a copy of your filing to the:
1. Attorney General
2. The Certificate of Service must include the same or
the mailing address of each opposing counsel and pro se
party." (Appendix 26)
He dismisses view of the District Judge, that the suit not filed
until service of process had and to the uniform current of
authority, that the filing of the petition under the Tucker Act is the
filing of a suit for purposes of limitation and jurisdiction(Milton v.
United States 105 F. 2d 253, 255 (5* Cir. 1939)
Dismissed the petitioner’s case because the Court deemed the
document out of limitation and jurisdiction. However, the original filed
date concealed, altered, or removed, filed on time in the Court of Appeal
filed drop box. (Appendix 22)

14

The penalties for document fraud are unlawful for any person or
entity knowingly-to forge, counterfeit, alter, or falsely make a document
to satisfy a requirement. (See 8 U.S. Code § 1324 (c)
Definition: falsely make—"means to prepare or provide an
application or document, with the knowledge or in reckless disregard
that the application or document contains a false, fictitious, or
fraudulent statement or material representation.
According to statute 18 USC 2071 states, “whoever willfully and
unlawfully conceals, removes, obliterates, or destroys or attempts to do
so, or, with intent to do so takes and carries away any record proceeding
filed with any clerk of any judge shall be fined under this title."
“At that time, and her residence, the Deputy Clerk, marked the
complaint, "Filed December 30, 1966, and accepted the filing fee by
Check”. Made no entry on the original complaint or records in said
Clerk's office showing that filed said criticism on any other date than
that written thereon on the night of December 30, 1966. (Greeson v.
Sherman 265 F. Supp. 340 (D.C. Va. 1967)
On December 17, 2019, the Court of Appeal docketed the
15

Application for Discretionary Appeal and refiled the Application for
Discretionary Appeal” on the same date; court of Appeal created a new
rule that Governor Nathan Deal didn't change. (Appendix 27)
Conflict with the state and federal court, “When there is an
apparent conflict, the action first filed takes precedence. A conflict exists
when the actions are in courts of equal priority was filed on the same
day. ” (Court of Appeals Rule 14 (c) (2) (4))
“The Court, including the judge, the magistrate, Clerk's office
personnel, and all court staff, must always remain impartial. This basic
rule protects everyone coming to Court from unfairness and injustice”.
“This rule means that no one connected with the Court can take sides
in any matter before the Court. Court personnel will give the same types
of limited information to people on both sides of a case, but they cannot
provide legal advice to anyone”.
Also, Court Staff cannot let anyone talk to the judge outside the
courtroom. “There shall be no communications relating to pending
cases to any judge or member of the judge’s staff.” Court of Appeal Rule
2(b)
16

" I previously informed the Clerk of Court of the Superior Court of
Fulton County and all other parties in the action below that
Commissioner Butler is a nominal party to this action, named solely to
file the administrative record and that he did not intend to participate"
(Appendix 28)
“A judge shall not initiate, permit, or consider ex parte
communications, or consider other communications made to the judge
outside the presence of the parties or their lawyers, concerning a
pending or impending matter." It must not allow people with firmly held
views that may result in decisions based on prejudice. Rule 2.9 (a) Ex
Parte Communication -American Bar Association)
The Supreme Court of Georgia docketed the Writ of Certiorari on
January 16, 2020. “Due within 20 days of the docketing of the petition,
is encouraged but is not mandatory. Failure file response shall deem
acknowledgment by the respondent that the requirement of the rules for
the granting of the petition for certiorari met." Supreme Court Rule 42
(Appendix 23)

17

According to Georgia Court of Appeal Rule 38 (b) (2)
2 “Notice of filing a petition for a writ of certiorari shall be
filed in this Court on the same day as the petition is filed in
the Supreme Court of the United States.”
The petitioner never received a response from the opposing party.
“Counsel-Submitting documents electronically is not a substitute for
service on the opposing party."
If the Clerk determines that a petition submitted timely and in
good faith is in a form that does not comply with this Rule or Rule 33 or
Rule 34, the Clerk will return it with a letter indicating the deficiency.
A corrected petition submitted under Rule 29.2 no more than 60 days
after the Clerk's letter's date will be deemed timely. (United State
Supreme Court Rules 29.2, 33, 34)
“Under the Tucker Act of 1887, the United States waived
its sovereign immunity as to certain kinds of claims. The Tucker Act

18

exposes the government to liability for certain claims. Specifically, the
Act extended the original Court of Claims’ jurisdiction to include claims
for liquidated or unliquidated damages arising from the Constitution .

19

CONCLUSION
For the foregoing reasons, petitioner requests that this Court
grant the petition for certiorari

This 28

of September 2020

Respectfully Submitted

Patricia Wynn

20

